   DEPARTMENT OF HEALTH & HUMAN SERVICES                                   OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684

November 16, 2009

Report Number: A-01-08-00602

Ms. Linda M. Hodgdon, Commissioner
Department of Administrative Services
State of New Hampshire
25 Capitol Street
State House Annex, Room 120
Concord, New Hampshire 03301-6312

Dear Ms. Hodgdon:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Retiree Drug Subsidy Plan Sponsor State of New
Hampshire For Plan Year Ended June 30, 2006.” We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly available
reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Leah Scott, Audit Manager, at (617) 565-2679 or through email at Leah.Scott@oig.hhs.gov. Please
refer to report number A-01-08-00602 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Linda M. Hodgdon


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




          REVIEW OF
    RETIREE DRUG SUBSIDY
        PLAN SPONSOR
 STATE OF NEW HAMPSHIRE FOR
PLAN YEAR ENDED JUNE 30, 2006




                       Daniel R. Levinson
                        Inspector General

                        November 2009
                        A-01-08-00602
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                               EXECUTIVE SUMMARY

BACKGROUND

Section 101 of the Medicare Prescription Drug, Improvement, and Modernization Act of
2003 (P. L. No. 108-173) established a Retiree Drug Subsidy (RDS) program effective
January 1, 2006. Under the program, a sponsor of a qualified retiree prescription drug
plan can receive a subsidy payment generally equal to 28 percent of each qualifying
covered retiree’s annual allowable drug costs. A qualifying covered retiree is a Part D
eligible individual who is not enrolled in a Part D plan but who is covered by a qualified
retiree prescription drug plan.

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an
RDS application to the Centers for Medicare & Medicaid Services (CMS) each year. As
part of the application process, plan sponsors must submit a list of qualifying covered
retirees that includes retiree identification information, as well as the plan sponsor’s
coverage effective and termination dates. The plan sponsor agreement included with the
RDS application requires sponsors to establish and implement proper safeguards against
unauthorized use and disclosure of the data exchanged under the application.

Pursuant to 42 CFR § 423.888(b), plan sponsors receive subsidy payments on the
condition that they provide accurate information. A plan sponsor can elect to receive
interim subsidy payments based on costs reported to date but must reconcile those
payments within 15 months after the end of its plan year. CMS extended the
reconciliation deadline for all plan year 2006 applications to June 30, 2008.

The State of New Hampshire (the State) offers prescription drug coverage to its retired
employees. The State received an interim subsidy payment of $1,783,586 in October
2006 for the 2006 plan year (July 1, 2005 through June 30, 2006). The State completed
final reconciliation for the 2006 plan year on June 18, 2008.

OBJECTIVES

The objectives of our review were to determine whether the State (1) met the
requirements to be a plan sponsor (2) ensured that drug subsidy costs were reported on
behalf of qualifying covered retirees, (3) established administrative safeguards over
retiree data included on the RDS secure Web site, and (4) ensured the accuracy of costs
reported on its interim cost report.

SUMMARY OF FINDING

The State met the requirements to be a plan sponsor, ensured that drug subsidy costs were
reported on behalf of qualifying covered retirees, and established administrative
safeguards over retiree data included on the RDS website. However, the State did not
ensure that drug costs were accurately reported on its interim cost report. For the 2006




                                             i
plan year, the State received a subsidy payment of $1,783,586 based on its interim cost
report. At final reconciliation, the State’s subsidy payment amounted to $1,619,516,
resulting in an overpayment of $164,070.

This overpayment occurred because the State had not established sufficient controls to
ensure that the amounts reported on its interim cost report were accurate. The State has
returned the overpayment to CMS.

RECOMMENDATION

We recommend that the State strengthen its controls to ensure that it accurately reports
drug costs on its interim cost reports.

STATE COMMENTS

In written comments on our draft report, the State outlined the status of current and
planned actions that it was taking in response to our recommendation. The State’s
comments appear in their entirety in the Appendix.




                                             ii
                                            TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Retiree Drug Subsidy.....................................................................................1
              Plan Sponsor Requirements ...........................................................................1
              Cost Reporting ...............................................................................................2
              The State of New Hampshire.........................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY...................................................2
               Objectives ......................................................................................................2
               Scope..............................................................................................................2
               Methodology ..................................................................................................3

FINDING AND RECOMMENDATION...........................................................................4

          COST REPORTING ACCURACY...........................................................................4
               Federal Requirements ....................................................................................4
               Inaccurate Interim Cost Reports ....................................................................4

          RECOMMENDATION .............................................................................................5

          STATE COMMENTS ...............................................................................................5

APPENDIX

          STATE COMMENTS




                                                              iii
                                              INTRODUCTION

BACKGROUND

Retiree Drug Subsidy

Section 101 of the Medicare Prescription Drug, Improvement, and Modernization Act of
2003 (P. L. No. 108-173) established a Retiree Drug Subsidy (RDS) program effective
January 1, 2006. Under the program, the Centers for Medicare & Medicaid Services
(CMS) makes subsidy payments to sponsors (employers and unions) of qualified retiree
prescription drug plans for each qualifying retiree covered under the plan. A qualifying
covered retiree is a Part D eligible individual who is not enrolled in a Part D plan but who
is covered by a qualified retiree prescription drug plan.

The subsidy payments for each qualifying covered retiree generally equal 28 percent of
allowable retiree drug costs. The allowable retiree drug costs are based on gross retiree
costs between a cost threshold and a cost limit, minus any price concessions such as
discounts or rebates.

Plan Sponsor Requirements

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an
RDS application to CMS each year. The application must contain identifying
information for the plan sponsor, an actuarial attestation, and a list of qualifying covered
retirees 1 and their identifying information, including the dates that the plan sponsor
provided the retiree with coverage under the plan. These dates are referred to as the
coverage effective and termination dates (coverage dates).

CMS queries the Medicare Beneficiary Database to determine the periods of time during
the plan year when the retiree is eligible for the subsidy. CMS includes the subsidy
effective and termination dates (subsidy dates) in the retiree response file that it returns to
the plan sponsor. CMS also sends plan sponsors a notification file when an event
occurs—such as a retiree’s death or enrollment in Medicare Part D—that may affect a
plan sponsor’s ability to receive the subsidy for a retiree. Plan sponsors must carefully
manage retiree response and notification files to ensure that they report only costs that are
incurred within both the retiree’s coverage and subsidy dates.

The plan sponsor agreement included with the RDS application requires sponsors to
establish and implement proper safeguards against unauthorized use and disclosure of the
data exchanged under the application.




1
 CMS also recommends that plan sponsors submit updated retiree lists on a periodic basis to reflect
changes to previously reported retiree information and to report new retiree information.



                                                    1
Cost Reporting

Pursuant to 42 CFR § 423.888(b), plan sponsors receive subsidy payments on the
condition that they provide accurate information. Plan sponsors, or their vendors, must
accumulate retiree drug costs and prepare and submit cost reports to CMS before
requesting subsidy payments. Plan sponsors can elect to receive interim subsidy
payments based on costs reported to date. A plan sponsor receiving interim payments is
required to reconcile interim subsidy payments within 15 months after the end of its plan
year. CMS makes any necessary adjustments to interim payments for the plan year when
the reconciliation is completed. CMS extended the reconciliation deadline for all plan
year 2006 applications to June 30, 2008.

The State of New Hampshire

The State of New Hampshire (the State) offers prescription drug coverage to its retired
employees. The State uses third party vendors to administer the retiree prescription drug
plan and to report retiree drug costs to CMS on the State’s behalf.

The State’s 2006 plan year (July 1, 2005, through June 30, 2006) included 6,290
qualifying covered retirees. In October 2006, the State received an interim subsidy
payment of $1,783,586 for the 2006 plan year based on cost data that the State submitted.
The State completed final reconciliation for the 2006 plan year on June 18, 2008.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our review were to determine whether the State (1) met the
requirements to be a plan sponsor, (2) ensured that drug subsidy costs were reported on
behalf of qualifying covered retirees, (3) established administrative safeguards over
retiree data included on the RDS secure Web site, and (4) ensured the accuracy of costs
reported on its interim cost report.

Scope

We reviewed the State’s plan year 2006 RDS application, retiree lists, retiree response
and notification files, and interim and final cost reports. Our review was limited to
determining whether the State reported drug costs for qualifying covered retirees and for
applicable periods of RDS eligibility. We also reviewed the differences between the
amounts included on the State’s interim and final cost reports. We did not determine the
allowability of the drug costs reported.

Our objectives did not require an understanding or assessment of the complete internal
control system at the State. We limited our review of internal controls to obtaining an
understanding of the State’s processes for (1) monitoring and updating its retiree files and




                                             2
coordinating with its outside vendors to ensure that costs claimed for subsidy payments
represent costs for qualifying covered retirees and (2) ensuring the accuracy of interim
cost reporting.

We performed our field work at the State’s Department of Administrative Services’ Risk
Management Unit in Concord, New Hampshire, in October 2008.

Methodology

To accomplish our objectives, we:

      reviewed applicable laws, regulations, Medicare program guidance, and the
       American Academy of Actuaries’ (AAA) guidance;

      verified that the State’s actuary had completed and submitted the required
       attestation in accordance with CMS and AAA guidance;

      reviewed the State’s notice of creditable coverage sent to Part D eligible retirees
       for the 6 months beginning January 1, 2006;

      interviewed State personnel to obtain an understanding of their RDS application
       process and their procedures for submitting retiree files to CMS and processing
       retiree response and notification files received from CMS;

      reviewed the State’s 2006 plan year RDS application to determine whether the
       information provided was complete, accurate, and timely and to verify that CMS
       had approved the application;

      selected a judgmental sample of 50 plan year 2006 retirees deemed eligible for
       participation in the RDS program and reviewed information from the Medicare
       Beneficiary Database to determine whether the sampled retirees were Medicare
       eligible, Part D eligible, and not enrolled in a Part D prescription drug plan;

      reviewed documentation provided by the State to determine if the sampled
       retirees met the State’s criteria for retiree health coverage and were enrolled in a
       retiree health plan approved for the RDS;

      reviewed detailed drug costs supporting the State’s plan year 2006 reconciliation
       cost report to determine whether the State reported gross retiree drug costs on
       behalf of qualifying covered retirees and within each retiree’s valid subsidy
       period;

      reviewed the State’s interim and reconciliation cost reports and analyzed the
       differences between the costs submitted and the subsidy payments received; and




                                             3
      identified the State’s secure Web site users for the plan year 2006 application and
       determined whether the users were assigned and registered in accordance with
       program policies.

We conducted our review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our finding and conclusion based on our audit objectives.

                        FINDING AND RECOMMENDATION

The State met the requirements to be a plan sponsor, ensured that drug subsidy costs were
reported on behalf of qualifying covered retirees, and established administrative
safeguards over retiree data included on the RDS website. However, the State did not
ensure that drug costs were accurately reported on its interim cost report. For the 2006
plan year, the State received a subsidy payment of $1,783,586 based on its interim cost
report. At final reconciliation, the State’s subsidy payment amounted to $1,619,516,
resulting in an overpayment of $164,070.

This overpayment occurred because the State had not established sufficient controls to
ensure that the amounts reported on its interim cost report were accurate. The State has
returned the overpayment to CMS.

COST REPORTING ACCURACY

Federal Requirements

Pursuant to 42 CFR § 423.888(b), plan sponsors receive subsidy payments on the
condition that they provide accurate information. By signing the plan sponsor agreement,
the plan sponsor accepts and agrees to this requirement. In addition, the plan sponsor
certifies that the cost data included in each subsidy payment request is true, accurate, and
complete.

Inaccurate Interim Cost Reports

The State received an interim subsidy payment of $1,783,586 based on the interim cost
report that the State submitted for payment in October 2006. However, the State’s
interim cost report contained inaccurate cost data. To correct these inaccuracies, the
State made significant revisions on its reconciliation cost report filed in June 2008. As a
result of these revisions, the State’s final subsidy payment was $1,619,516, or $164,070
less than the interim subsidy payment that the State had received from CMS.

This $164,070 overpayment occurred because the State had not established sufficient
controls to ensure that the amounts reported on its interim cost report were accurate. The
State has returned the overpayment to CMS.



                                             4
RECOMMENDATION

We recommend that the State strengthen its controls to ensure that it accurately reports
drug costs on its interim cost reports.

STATE COMMENTS

In written comments on our draft report, the State outlined the status of current and
planned actions that it was taking in response to our recommendation. The State’s
comments appear in their entirety in the Appendix.




                                             5
APPENDIX
                                                                                              APPENDIX
                                                                                              Page 1 of 2
                                  State of New Hampshire 

                                   DEPARTMENT OF ADMINISTRATIVE SERVICES
                                         OFFICE OF THE COMMISSIONER
                                           25 Capitol Street - Room 120
                                          Concord, New Hampshire 03301
LINDA M . HODGDON                                                                                   JOSEPH B. BOUCHARD
    Commissioner                                                                                     Assistant Commissioner
   (603) 271-3201                                                                                        (603) 271 -3204




                                                                   October 28, 2009


              Mr. Michael J. Armstrong
              Regional Inspector General
                     for Audit Services
              Office of Audit Services
              Region I
              John F. Kennedy Federal Building
              Room 2425
              Boston, MA 02203


              Re: Report Number: A-OI-08-00602

              Dear Mr. Armstrong:

              Thank you for your letter of September 28, 2009 and the attached Review 0/ Retiree Drug
              Subsidy Plan Sponsor State o/New Hampshire/or Plan Year Ended June 30, 2006 (the
              "Review"). This letter is to inform you that the State of New Hampshire does not intend
              to provide any written comments in response to the Review, other than to thank the U.S
              Department of Health and Human Services, Office of Inspector General (OIG), for the
              courteous and professional manner in which it conducted its review.

              The State would like to provide a brief report on the status of our actions, undertaken and
              planned, in response to the sole recommendation of the OIG in the Review. As you know,
              in the OIG Review, your Office determined that the State "had not established sufficient
              controls to ensure that the amounts reported on its interim cost report were accurate".
              The OIG recommended in the Review "that the State strengthen its controls to ensure that
              it accurately reports drug costs on its interim cost reports".

               In response to this recommendation, the State, through its Employee and Retiree Health
               Benefit Program (the "Program"), which is administered in my agency, has undertaken to
               establish a quarterly cost review process with its pharmacy benefits manager. While the
               Program currently reviews all of its plan prescription drug costs and member utilization
               information on a quarterly basis, it has not actively matched that information with the
               interim reports. Beginning with the next quarterly review in December 2009, the
               Program will additionally consider the Over 65 plan cost information in association with
               the current Retiree Drug Subsidy (RDS) program thresholds and limits. In addition, the




FAX: 603-271 -6600                                                                       TDD Access : Relay NH 1-800-735-2964
                                                                               APPENDIX
                                                                               Page 2 of 2




Program will review the RDS eligibility information so that only those costs associated
with eligible retirees will be considered. Under this process, Program staff will become
better acquainted with the specific cost information submitted to RDS on behalf of the
State. With the knowledge gained from this acquaintance, the State will be better able to
review the interim cost reports for reasonableness.

Thank you again for the Review. The State is pleased with the outcome of the Review,
and eager to improve the quality of its participation in this important federal program.

                                                     Sincerely,



                                                    Linda M. Hodgdon,
                                                    Commissioner




LMH/rjk
